EXHIBIT A

320

923 FEDERAL REPORTER, 3d SERIES

issue of Ms. Patel’s liability and damages
under the FCA for false claims submitted
to Medicare for unsupervised neurological
tests and on the issue of Ms. Patel’s common law fraud. We will reverse the portions of the District Court’s summary
judgment orders with respect to Heart
Solution and with respect to Nita Patel’s
liability and damages for the remaining
common law claims and remand this case
to the District Court for further proceedings consistent with this opinion.

,
Jennifer SWEDA; Benjamin A. Wiggins;
Robert L. Young; Faith Pickering;
Pushkar Sohoni; Rebecca N. Toner,
individually and as representatives of
a class of participants and beneficiaries on behalf of the University of
Pennsylvania Matching Plan, Appellants
v.
UNIVERSITY OF PENNSYLVANIA;
Investment Committee; Jack
Heuer
No. 17-3244
United States Court of Appeals,
Third Circuit.
Argued October 2, 2018
(Opinion Filed: May 2, 2019)
Background: Participants in employer’s
defined contribution, individual account,
employee pension benefit plan filed class
action against employer and its appointed
fiduciaries, for breach of fiduciary duty,
prohibited transactions, and failure to
monitor fiduciaries under Employee Retirement Income Security Act (ERISA).

The United States District Court for the
Eastern District of Pennsylvania, No. 2-16cv-04329, Gene E.K. Pratter, J., 2017 WL
4179752, dismissed complaint, and participants appealed.
Holdings: The Court of Appeals, Fisher,
Circuit Judge, held that:
(1) participants pled plausible breach of
fiduciary duty claims;
(2) participants had standing to assert
breach of fiduciary duty claims;
(3) fiduciaries did not engage in prohibited
transaction when they entered into
lock-in agreement with financial services organization;
(4) fiduciaries did not cause plan to enter
prohibited transaction when they
caused plan to pay administrative fees
to investment advisor that offered mutual funds;
(5) fiduciaries did not cause plan to enter
prohibited transaction when they
caused plan to pay bookkeeping fees to
financial services organization; and
(6) fiduciaries did not cause plan to enter
prohibited transaction under ERISA
when they caused plan to pay investment fees to companies.
Affirmed in part, reversed in part, and
remanded.
Roth, Senior Judge, concurred in part, dissented in part, and filed opinion.
1. Federal Courts O3587(1)
Court of Appeals conducts plenary review of order granting motion to dismiss
for failure to state claim. Fed. R. Civ. P.
12(b)(6).
2. Labor and Employment O649
Plaintiffs asserting breach of fiduciary
duty claims under ERISA were not required to rule out every possible lawful

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

explanation for conduct they challenged.
Employee Retirement Income Security
Act of 1974 § 404, 29 U.S.C.A.
§ 1104(a)(1).
3. Labor and Employment O403
ERISA furthers national public interest in safeguarding anticipated employee
benefits upon which individuals’ livelihoods
depend. Employee Retirement Income
Security Act of 1974 § 2, 29 U.S.C.A.
§ 1001(a).
4. Labor and Employment O477
ERISA fiduciaries are held to prudent
man standard of care, which is drawn from
trust law. Employee Retirement Income
Security Act of 1974 § 404, 29 U.S.C.A.
§ 1104(a).

321

8. Labor and Employment O488
ERISA fiduciary’s process in deciding
how to invest plan assets must bear marks
of loyalty, skill, and diligence expected of
expert in field; it is not enough to avoid
misconduct, kickback schemes, and badfaith dealings. Employee Retirement Income Security Act of 1974 § 404, 29
U.S.C.A. § 1104(a).
9. Federal Civil Procedure O1752.1
Affirmative defense is generally not
part of court’s consideration of motion to
dismiss for failure to state claim, except
where defense has been anticipated by
plaintiff’s complaint. Fed. R. Civ. P.
12(b)(6).
10. Labor and Employment O488

ERISA fiduciary must prudently select investments, and failure to monitor
investments and remove imprudent ones
may constitute breach of fiduciary duties.
Employee Retirement Income Security
Act of 1974 § 404, 29 U.S.C.A. § 1104(a);
29 C.F.R. § 2550.404a-1(b)(1)(i).

Participants in employer’s defined
contribution, individual account, employee
pension benefit plan pled plausible breach
of fiduciary duty claims against employer
and its appointed fiduciaries under ERISA
by offering specific comparisons between
returns on plan investment options and
readily available alternatives, as well as
practices of similarly situated fiduciaries to
support their allegations that fiduciaries
failed to defray reasonable expenses of
administering plan and selected higher
cost investments when identical lower-cost
investments were available. Employee
Retirement Income Security Act of 1974
§ 404, 29 U.S.C.A. § 1104(a).

7. Labor and Employment O488

11. Labor and Employment O489

Court assesses ERISA fiduciary’s performance in investing plan assets by looking at process rather than results, focusing
on fiduciary’s conduct in arriving at decision and asking whether fiduciary employed appropriate methods to investigate
and determine merits of particular investment. Employee Retirement Income Security Act of 1974 § 404, 29 U.S.C.A.
§ 1104(a).

ERISA fiduciaries, like trustees, are
afforded discretion because there are no
universally accepted and enduring theories
of financial markets or prescriptions for
investment that can provide clear and specific guidance, and therefore varied approaches to prudent investment of assets
are permissible. Employee Retirement
Income Security Act of 1974 § 404, 29
U.S.C.A. § 1104(a).

5. Labor and Employment O475
Elements of claim for breach of fiduciary duty under ERISA are: (1) plan fiduciary (2) breaches ERISA-imposed duty
(3) causing loss to plan. Employee Retirement Income Security Act of 1974 § 404,
29 U.S.C.A. § 1104(a).
6. Labor and Employment O489

322

923 FEDERAL REPORTER, 3d SERIES

12. Labor and Employment O477
While ERISA fiduciaries have discretion in plan management, that discretion is
bounded by prudent man standard. Employee Retirement Income Security Act of
1974 § 404, 29 U.S.C.A. § 1104(a).
13. Labor and Employment O475
ERISA fiduciary’s conduct at all times
must be reasonably supported in concept
and must be implemented with proper
care, skill, and caution. Employee Retirement Income Security Act of 1974 § 404,
29 U.S.C.A. § 1104(a).
14. Federal Civil Procedure O184.5
Labor and Employment O646
Participants in employer’s defined
contribution, individual account, employee
pension benefit plan who invested in underperforming investment options offered
by plan had standing to assert breach of
fiduciary duty claims in their class action
against employer and its appointed fiduciaries under ERISA based on fiduciaries’
retention of high-cost investment options
with historically poor performance compared to available alternatives. Employee
Retirement Income Security Act of 1974
§ 502, 29 U.S.C.A. § 1132(a)(2).
15. Labor and Employment O493
Elements of party-in-interest, prohibited transaction claim under ERISA are:
(1) fiduciary causes (2) listed transaction to
occur (3) between plan and party in interest. Employee Retirement Income Security Act of 1974 § 406, 29 U.S.C.A.
§ 1106(a)(1).
16. Labor and Employment O493
There is no per se rule that every
furnishing of goods or services between
plan and party in interest is prohibited
transaction under ERISA. Employee Retirement Income Security Act of 1974
§ 406, 29 U.S.C.A. § 1106(a)(1).

17. Labor and Employment O493
Violation of ERISA’s prohibition on
use of plan assets for benefit of party in
interest occurs when: (1) fiduciary, (2)
causes plan to engage in transaction, (3)
that uses plan assets, (4) for benefit of
party in interest, and (5) fiduciary knows
or should know that elements three and
four are satisfied. Employee Retirement
Income Security Act of 1974 § 406, 29
U.S.C.A. § 1106(a)(1)(D).
18. Labor and Employment O493
Absent factual allegations that support element of intent to benefit party in
interest, plaintiff does not plausibly allege
that transaction that constitutes direct or
indirect furnishing of goods, services, or
facilities between plan and party in interest prohibited by ERISA has occurred.
Employee Retirement Income Security
Act of 1974 § 406, 29 U.S.C.A.
§ 1106(a)(1)(C).
19. Labor and Employment O493
Defined contribution, individual account, employee pension benefit plan’s fiduciaries did not engage in prohibited
transaction under ERISA when they entered into lock-in agreement with financial
services organization requiring inclusion of
its stock and money market accounts
among plan’s investment options and
agreeing to its recordkeeping services, absent allegation that organization was party
in interest at time of lock-in. Employee
Retirement Income Security Act of 1974
§§ 3, 406, 29 U.S.C.A. §§ 1002(14)(B),
1106(a)(1).
20. Labor and Employment O493
Defined contribution, individual account, employee pension benefit plan’s fiduciaries did not cause plan to enter prohibited transaction under ERISA when
they caused plan to pay administrative
fees to investment advisor that offered mutual funds as investment options under

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

plan, even if investment advisor was party
in interest, where fees were drawn from
mutual fund assets, not plan assets. Employee Retirement Income Security Act of
1974
§§ 401,
406,
29
U.S.C.A.
§§ 1101(b)(1), 1106(a)(1)(A), (D).
21. Labor and Employment O493
Defined contribution, individual account, employee pension benefit plan’s fiduciaries did not cause plan to enter prohibited transaction under ERISA when
they caused plan to pay recordkeeping fees
to financial services organization, even if
investment advisor was party in interest,
absent allegation of facts showing that fiduciaries intended to benefit organization.
Employee Retirement Income Security
Act of 1974 § 406, 29 U.S.C.A.
§ 1106(a)(1)(C).
22. Labor and Employment O493
Defined contribution, individual account, employee pension benefit plan’s fiduciaries did not cause plan to enter prohibited transaction under ERISA when
they caused plan to pay investment fees to
financial services organization and investment advisor that provided investment options to plan participants, even if companies were parties in interest, where fees
were drawn from mutual fund assets, not
plan assets, and there was no allegation
that fiduciaries intended to benefit companies. Employee Retirement Income Security Act of 1974 § 406, 29 U.S.C.A.
§ 1106(a)(1).

323

South 4th Street, Suite 1200, St. Louis,
MO 63102, Counsel for Appellants.
Brian T. Ortelere [ARGUED], Morgan
Lewis & Bockius, 1701 Market Street,
Philadelphia, PA 19103, Christopher J. Boran, Matthew A. Russell, Morgan Lewis &
Bockius, 77 West Wacker Drive, Chicago,
IL 60601, Michael E. Kenneally, Morgan
Lewis & Bockius, 1111 Pennsylvania Avenue, N.W., Suite 800 North, Washington,
DC 20004, Counsel for Appellees.
Brian T. Burgess, Jaime A. Santos,
Goodwin Procter, 901 New York Avenue,
NW, Suite 900 East, Washington, DC
20001, Alison V. Douglass, James O. Fleckner, Goodwin Procter, 100 Northern Avenue, Boston, MA 02210, Counsel for Chamber of Commerce of The United States of
America and American Benefits Council,
Amicus Appellees.
Brian D. Netter, Mayer Brown, 1999 K
Street, N.W., Washington, DC 20006,
Counsel for American Association of State
Colleges and Universities, American Council on Education, Association of American
Universities, Association of Community
College Trustees, Association of Public and
Land-Grant Universities, College and University Professional Association For Human Resources, Council of Independent
Colleges, National Association of Independent Colleges and Universities, Amicus
Appellees.

On Appeal from the United States District Court For the Eastern District of
Pennsylvania (E.D. Pa. No. 2-16-cv-04329),
District Judge: Honorable Gene E.K. Pratter.

Lori A. Martin, WilmerHale, 7 World
Trade Center, 250 Greenwich Street, New
York, NY 10007, Seth P. Waxman, Paul R.
Wolfson, WilmerHale, 1875 Pennsylvania
Avenue, N.W., Washington, DC 20006,
Counsel for Teachers Insurance & Annuity
Association of America, Amicus Appellee.

Jerome J. Schlichter, Sean E. Soyars,
Kurt C. Struckhoff, Michael A. Wolff [ARGUED], Schlichter Bogard & Denton, 100

Before: SHWARTZ, ROTH, and
FISHER, Circuit Judges.

324

923 FEDERAL REPORTER, 3d SERIES

OPINION OF THE COURT
FISHER, Circuit Judge.
Plaintiffs Jennifer Sweda, Benjamin
Wiggins, Robert Young, Faith Pickering,
Pushkar Sohoni, and Rebecca Toner, representing a class of participants in the
University of Pennsylvania’s 403(b) defined contribution, individual account, employee pension benefit plan, sued Defendants, the University of Pennsylvania and
its appointed fiduciaries, for breach of fiduciary duty, prohibited transactions, and
failure to monitor fiduciaries under the
Employee Retirement Income Security
Act (ERISA), 29 U.S.C. §§ 1001-1461.
Plaintiffs (collectively, ‘‘Sweda’’) alleged
that Defendants (collectively, ‘‘Penn’’),
among other things, failed to use prudent
and loyal decision making processes regarding investments and administration,
overpaid certain fees by up to 600%, and
failed to remove underperforming options
from the retirement plan’s offerings. The
District Court dismissed Sweda’s complaint in its entirety. We will reverse the
District Court’s dismissal of the breach of
fiduciary duty claims at Counts III and V
only and remand for further proceedings.
I.
Sweda and her fellow Plaintiffs-Appellants are current and former Penn employees who participate, or participated, in
Penn’s retirement plan (the ‘‘Plan’’). They
sought to represent the proposed class of
Plan participants, 20,000 current and former Penn employees who had participated
in the Plan since August 10, 2010. The
Defendants are the University of Pennsylvania, its Investment Committee, and Jack
Heuer, the University’s Vice President of
Human Resources. The Plan is a defined
contribution plan under 29 U.S.C.
§ 1002(34), tax qualified under 26 U.S.C.
§ 403(b). The University matches employ-

ees’ contributions up to 5% of compensation.
As a 403(b), the Plan offers mutual
funds and annuities: the former through
TIAA-CREF and Vanguard Group, Inc.
and the latter through TIAA-CREF. Since
2010, the Plan has offered as many as 118
investment options. As of December 2014,
the Plan offered 78 options: 48 Vanguard
mutual funds, and 30 TIAA-CREF options
including mutual funds, fixed and variable
annuities, and an insurance company separate account. Effective October 19, 2012,
Penn organized its investment fund lineup
into four tiers. The TIAA-CREF and Vanguard options under Tier 1 consisted of
lifecycle or target-date funds for the ‘‘Doit-for-me’’ investor. Certain core funds
were designated Tier 2, designed for the
‘‘Help-me-do-it’’ investor looking to be involved in his or her investment choices
without having to decide among too many
options. Under Tier 3, the Plan offered an
‘‘expanded menu of funds’’ for ‘‘the more
advanced ‘mix-my-own’ investor,’’ and under Tier 4, the Plan offered the option of a
brokerage account window for the ‘‘selfdirected’’ investor looking for additional
options, subject to additional fees. Plan
participants thereafter could ‘‘select a combination of funds from any or all of the
investment tiers.’’ At the end of 2014, the
Plan had $ 3.8 billion in assets: $ 2.5 billion invested in TIAA-CREF options, and
$ 1.3 billion invested in Vanguard options.
TIAA-CREF and Vanguard charge investment and administrative (recordkeeping) fees. Mutual fund investment fees are
charged as a percentage of a fund’s managed assets, known as the expense ratio,
and the rate can differ by share class. The
mutual funds in which the Plan invests
have two share classes: retail and institutional. Retail class shares generally have
higher investment fees than institutional
class shares. There are also two common

325

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

recordkeeping fee models. In a flat fee
model, recordkeeping fees are a set
amount per participant, whereas in a revenue sharing model, part of an option’s
expense ratio is diverted to administrative
service providers. TIAA-CREF and Vanguard charged the Plan under the revenue
sharing model.
Sweda alleged numerous breaches of fiduciary duty and prohibited transactions.
She brought six counts against all Defendants, and one count against the University. The first six counts alleged breaches of
fiduciary duty in violation of 29 U.S.C.
§ 1104(a)(1) (Counts I, III, and V) and
prohibited transactions in violation of 29
U.S.C. § 1106(a)(1) (Counts II, IV, and
VI). Sweda also alleged that the University
failed to adequately monitor its appointed
fiduciaries in Count VII.
Penn moved to dismiss the complaint,
and the District Court granted the motion.
The court determined that Sweda failed to
state a claim for fiduciary breach under
Bell Atl. Corp. v. Twombly, 550 U.S. 544,
127 S.Ct. 1955, 167 L.Ed.2d 929 (2007) and
Renfro v. Unisys Corp., 671 F.3d 314 (3d
Cir. 2011), because her factual allegations
could also indicate rational conduct. As for
the prohibited transaction claims, the court
held that the service agreements could not
constitute prohibited transactions without
an allegation that Penn had the subjective
intent to benefit a party in interest. The
court dismissed Count VII after determining that it was duplicative of the claims at
Counts I, III, and V.1 Sweda now appeals.
II.
[1] The District Court had jurisdiction
under 28 U.S.C. § 1331 and 29 U.S.C.
§ 1132(e)(1) and (f). We have jurisdiction
under 28 U.S.C. § 1291. We conduct plena1.

Sweda does not address the District Court’s
dismissal of Count VII in her opening brief.
Therefore, the District Court’s dismissal of

ry review of an order granting a motion to
dismiss for failure to state a claim under
Federal Rule of Civil Procedure (12)(b)(6).
Renfro, 671 F.3d at 320; Burtch v. Milberg
Factors, Inc., 662 F.3d 212, 220 (3d Cir.
2011).
III.
A.

Pleadings standards
brought under ERISA

for

claims

The question in this case is whether
Sweda stated a claim that should survive
termination at the earliest stage in litigation. When a court grants a motion to
dismiss a complaint under Rule 12(b)(6), it
deprives a plaintiff of the benefit of the
court’s adjudication of the merits of its
claim before the court considers any evidence. That is why, in exercising our plenary review, we apply the same standard
as the district court and construe the complaint ‘‘in the light most favorable to the
plaintiff,’’ Santomenno ex rel. John Hancock Tr. v. John Hancock Life Ins. Co.,
768 F.3d 284, 290 (3d Cir. 2014) (citation
and internal quotation marks omitted), to
determine whether it ‘‘contain[s] sufficient
factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its
face,’ ’’ Ashcroft v. Iqbal, 556 U.S. 662, 678,
129 S.Ct. 1937, 173 L.Ed.2d 868 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570, 127 S.Ct. 1955, 167 L.Ed.2d
929 (2007)). ‘‘[W]e disregard rote recitals
of the elements of a cause of action, legal
conclusions, and mere conclusory statements.’’ James v. City of Wilkes-Barre,
700 F.3d 675, 679 (3d Cir. 2012). A claim
‘‘has facial plausibility when the pleaded
factual content allows the court to draw
the reasonable inference that the defendant is liable for the misconduct alleged.’’
Count VII is not before us on appeal. Barna v.
Bd. of Sch. Dir. of the Panther Valley Sch.
Dist., 877 F.3d 136, 145 (3d Cir. 2017).

326

923 FEDERAL REPORTER, 3d SERIES

Thompson v. Real Estate Mortg. Network,
748 F.3d 142, 147 (3d Cir. 2014) (citation
and internal quotation marks omitted).
Here, the District Court held that Sweda’s complaint did not state a plausible
claim, observing at various points in its
memorandum that ‘‘[a]s in Twombly, the
actions are at least ‘just as much in line
with a wide swath of rational and competitive business strategy’ in the market as
they are with a fiduciary breach.’’ Sweda v.
Univ. of Pennsylvania, No. CV 16-4329,
2017 WL 4179752, at *7, 8 (E.D. Pa. Sept.
21, 2017) (quoting Twombly, 550 U.S. at
554, 127 S.Ct. 1955). However, Twombly’s
discussion of alleged misconduct that is
‘‘just as much in line with a wide swath of
rational and competitive business strategy’’ is specific to antitrust cases. 550 U.S.
at 554, 127 S.Ct. 1955. In an antitrust case,
‘‘a conclusory allegation of agreement at
some unidentified point does not supply
facts adequate to show illegality,’’ therefore ‘‘when allegations of parallel conduct
are set out in order to make a § 1 claim,
they must be placed in a context that
raises a suggestion of a preceding agreement, not merely parallel conduct that
could just as well be independent action.’’
Id. at 557, 127 S.Ct. 1955.
[2] One of our sister circuits has declined to extend Twombly’s antitrust
pleading rule to breach of fiduciary duty
claims under ERISA because ‘‘[r]equiring
a plaintiff to rule out every possible lawful
explanation for the conduct he challenges
would invert the principle that the complaint is construed most favorably to the
nonmoving party.’’ Braden v. Wal-Mart
Stores, Inc., 588 F.3d 585, 597 (8th Cir.
2009) (citation and internal quotation
marks omitted). We agree, and decline to
2.

We have also described this as a two-step
analysis, but the task is the same. See Fowler
v. UPMC Shadyside, 578 F.3d 203, 210-11 (3d
Cir. 2009) (the court (1) separates factual and

extend Twombly’s antitrust pleading rule
to such claims. To the extent that the
District Court required Sweda to rule out
lawful explanations for Penn’s conduct, it
erred.
We now turn to the task of evaluating
Sweda’s complaint. We progress in three
steps: First, we will note the elements of a
claim; second, we will identify allegations
that are conclusory and therefore not assumed to be true, and; third, accepting the
factual allegations as true, we will view
them and reasonable inferences drawn
from them in the light most favorable to
Sweda to decide whether ‘‘they plausibly
give rise to an entitlement to relief.’’ Connelly v. Lane Constr. Corp., 809 F.3d 780,
787 (3d Cir. 2016) (quoting Iqbal, 556 U.S.
at 679, 129 S.Ct. 1937).2 Pleadings that
establish only a mere possibility of misconduct do not show entitlement to relief.
Fowler, 578 F.3d at 211.
[3] In our evaluation of the complaint,
we must account for the fact that Rule
8(a)(2), Twombly, and Iqbal operate with
contextual specificity. Renfro, 671 F.3d at
321 (‘‘[W]e must examine the context of a
claim, including the underlying substantive
law, in order to assess its plausibility.’’).
Therefore, ERISA’s purpose informs our
assessment of Sweda’s pleadings. ERISA’s
protective function is the focal point of the
statute. The statute plainly states that
ERISA is a response to ‘‘the lack of employee information and adequate safeguards concerning [employee benefit
plans’] operation,’’ and adds that ERISA
reflects Congress’s desire ‘‘that disclosure
be made and safeguards be provided with
respect to the establishment, operation,
and administration of such plans.’’ 29
U.S.C. § 1001(a). This Court has repeatedlegal elements of a claim and takes the wellpleaded factual allegations as true, and (2)
determines whether those facts state a plausible claim for relief).

327

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

ly acknowledged and affirmed ERISA’s
protective function. See e.g. McCann v.
Unum Provident, 907 F.3d 130, 143 (3d
Cir. 2018); Edmonson v. Lincoln Nat’l
Life Ins. Co., 725 F.3d 406, 413 (3d Cir.
2013); Nat’l Sec. Sys., Inc. v. Iola, 700 F.3d
65, 81 (3d Cir. 2012). ERISA furthers ‘‘the
national public interest in safeguarding anticipated employee benefits’’ upon which
individuals’ livelihoods depend. Cutaiar v.
Marshall, 590 F.2d 523, 529 (3d Cir. 1979).
ERISA also ‘‘represents a careful balancing between ensuring fair and prompt
enforcement of rights under a plan and
the encouragement of the creation of such
plans.’’ Fifth Third Bancorp v. Dudenhoeffer, 573 U.S. 409, 134 S.Ct. 2459, 2470,
189 L.Ed.2d 457 (2014) (citations and internal quotation marks omitted); In re
Unisys Sav. Plan Litig., 74 F.3d 420, 434
(3d Cir. 1996) (ERISA ‘‘protect[s] and
strengthen[s] the rights of employees’’ and
‘‘encourage[s] the development of private
retirement plans.’’). Plan sponsors and fiduciaries have reliance interests in the
courts’ interpretation of ERISA when establishing plan management practices.
ERISA ‘‘ ‘induc[es] employers to offer
benefits by assuring a predictable set of liabilities.’ ’’ Renfro, 671 F.3d at 321 (quoting Rush Prudential HMO, Inc. v. Moran, 536 U.S. 355, 379, 122 S.Ct. 2151, 153
L.Ed.2d 375 (2002)). Both pursuits—participant protection and plan creation—are
important considerations at the pleadings
stage.
[4] Two sections of the statute are particularly important to this appeal: the section outlining fiduciary duties, 29 U.S.C.
§ 1104, and the section prohibiting certain
transactions, id. § 1106. Under § 1104(a),
fiduciaries are held to the prudent man
standard of care,3 which is drawn from
3.

The duties in § 1104(a) fully apply to all
fiduciaries except fiduciaries of Employee
Stock Ownership Plans (ESOPs). Fifth Third

trust law. Tibble v. Edison Int’l (Tibble
III ), ––– U.S. ––––, 135 S.Ct. 1823, 1828,
191 L.Ed.2d 795 (2015); In re Unisys, 74
F.3d at 434 (‘‘Congress has instructed that
section 1104 ‘in essence, codifies and
makes applicable to TTT fiduciaries certain
principles developed in the evolution of the
law of trusts.’ ’’) (quoting S. Rep. No. 127,
93 Cong., 2d Sess. (1974)). Section 1104(a)
lays the foundation of fiduciary duty, and
§ 1106(a) ‘‘[s]upplement[s] that foundational obligation’’ by ‘‘erect[ing] a categorical bar to transactions between the plan
and a ‘party in interest’ deemed likely to
injure the plan.’’ Nat’l Sec. Sys., Inc., 700
F.3d at 82.
The standards for fiduciary conduct in
§§ 1104 and 1106 may overlap. When evaluating whether there has been a breach of
fiduciary duties under § 1104, courts may
consider the administrator’s need to ‘‘defray[ ] reasonable expenses of administering [a] plan.’’ 29 U.S.C. § 1104(a)(1)(A)(ii).
A prohibited transactions claim under
§ 1106 might also involve expense-related
transactions between a plan and party in
interest. Id. § 1106(a)(1)(C). Despite the
overlap, a fiduciary who breaches the
duties under § 1104(a) does not necessarily violate § 1106(a). Because Sweda alleged that Penn breached its fiduciary
duties and caused the Plan to engage in
prohibited transactions, we will first address claims under § 1104(a)(1) (Counts I,
III, and V), and then address her claims
under § 1106(a)(1) (Counts II, IV, and VI).
Section 1104(a)(1) claims (Counts I,
III, and V)

B.
1.

Elements of
§ 1104(a)(1)

a

claim

under

[5] In reviewing the District Court’s
dismissal of Sweda’s fiduciary breach
Bancorp, 134 S.Ct. at 2467. Neither ESOPs
nor the fiduciary duties accompanying them
are at issue in this case.

328

923 FEDERAL REPORTER, 3d SERIES

claims, our first task is to identify the
elements of such a claim. They are: ‘‘(1) a
plan fiduciary (2) breaches an ERISA-imposed duty (3) causing a loss to the plan.’’
Leckey v. Stefano, 501 F.3d 212, 225–26
(3d Cir. 2007), as amended (Dec. 21, 2007).
Because the parties do not dispute that
Penn is a fiduciary or whether loss was
adequately alleged, our focus is whether
Sweda adequately alleged that Penn
breached its fiduciary duties. A fiduciary
must ‘‘discharge his duties with respect to
a plan solely in the interest of the participants and beneficiaries TTT for the exclusive purpose of TTT providing benefits to
participants and their beneficiaries; and
TTT defraying reasonable expenses of administering
the
plan.’’
29
U.S.C.
§ 1104(a)(1), (a)(1)(A). As explained above,
fiduciaries are held to the ‘‘prudent man’’
standard of care, which requires fiduciaries to exercise ‘‘the care, skill, prudence,
and diligence under the circumstances
then prevailing that a prudent man acting
in a like capacity and familiar with such
matters would use in the conduct of an
enterprise of a like character and with like
aims.’’ Id. § 1104(a)(1)(B). Fiduciaries are
also required to diversify investments unless it would be imprudent,4 and to administer the plan according to governing documents
and
instruments.
Id.
§ 1104(a)(1)(C), (D). Fiduciaries are personally liable for losses due to breach. Id.
§ 1109(a).
[6] A fiduciary must prudently select
investments, and failure to ‘‘monitor TTT
investments and remove imprudent ones’’
may constitute a breach. See Tibble III,
135 S.Ct. at 1828-29; see also 29 C.F.R.
4.

ESOP fiduciaries are exempted from the
general duty to diversify. Fifth Third Bancorp,
134 S.Ct. at 2467.

5.

Under ERISA Procedure 76-1 § 10, only the
parties described in a request for a DOL advisory opinion may rely on the opinion, and

§ 2550.404a-1(b)(1)(i) (fiduciaries must
give ‘‘appropriate consideration to those
facts and circumstances that TTT the fiduciary knows or should know are relevant to
the particular investment or investment
course of action involved’’); see also Fink v.
Nat’l Sav. & Trust Co., 772 F.2d 951, 957
(D.C. Cir. 1985) (‘‘investigation of the merits of a particular investment is at the
heart of the prudent person standard’’).
Fiduciaries must also understand and
monitor plan expenses. ‘‘Expenses, such as
management or administrative fees, can
sometimes significantly reduce the value of
an account in a defined-contribution plan,’’
Tibble III, 135 S.Ct. at 1826, by decreasing
its immediate value, and by depriving the
participant of the prospective value of
funds that would have continued to grow if
not taken out in fees. Recognizing the
substantial impact of a fiduciary’s choice
among fee options, the Ninth Circuit, in
Tibble v. Edison Int’l (Tibble II), affirmed
the district court’s finding that the plan
fiduciary’s inclusion of retail class shares
of three funds when institutional class
shares of the same funds were available
for 24 to 40 fewer basis points, was a
fiduciary breach. 729 F.3d 1110, 1137-39
(9th Cir. 2013), vacated on other
grounds, ––– U.S. ––––, 135 S.Ct. 1823, 191
L.Ed.2d 795 (2015).
Cognizant of the impact of fees on Plan
value, fiduciaries should be vigilant in ‘‘negotiation of the specific formula and methodology’’ by which fee payments such as
‘‘revenue sharing will be credited to the
plan and paid back to the plan or to plan
service providers.’’ DOL Advisory Opinion
2013-03A, 2013 WL 3546834, at *4.5 Fiduonly to the extent that the problem is fully and
accurately described in the request. Advisory
Op. Procedure, 41 Fed. Reg. 36281-02 (August 27, 1976). The opinions do not have
precedential effect. ‘‘Because of the nature
and limitations of these rulings,’’ the Supreme

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

ciaries must also consider a plan’s ‘‘power
TTT to obtain favorable investment products, particularly when those products are
substantially identical—other than their
lower cost—to products the trustee has
already selected.’’ Tibble v. Edison Int’l
(Tibble IV ), 843 F.3d 1187, 1198 (9th Cir.
2016). See Tibble II, 729 F.3d at 1137 n.24
(common knowledge that investment minimums are often waived for large plans).
When expenses are paid from plan assets,
fiduciaries must ensure that the assets are
used ‘‘for the exclusive purpose of providing benefits to participants and beneficiaries and defraying reasonable expenses of
administering the plan.’’ DOL Advisory
Opinion 2001-01A, 2001 WL 125092, at *1.
See 29 U.S.C. § 1104(a)(1)(A).
[7, 8] Bearing these fiduciary duties in
mind, a court assesses a fiduciary’s performance by looking at process rather than
results, ‘‘focusing on a fiduciary’s conduct
in arriving at [a] TTT decision TTT and
asking whether a fiduciary employed the
appropriate methods to investigate and determine the merits of a particular investment.’’ In re Unisys, 74 F.3d at 434 (citations omitted). A fiduciary’s process must
bear the marks of loyalty, skill, and diligence expected of an expert in the field. It
is not enough to avoid misconduct, kickback schemes, and bad-faith dealings. The
law expects more than good intentions.
‘‘[A] pure heart and an empty head are not
enough.’’ DiFelice v. U.S. Airways, Inc.,
497 F.3d 410, 418 (4th Cir. 2007) (quoting
Donovan v. Cunningham, 716 F.2d 1455,
1467 (5th Cir. 1983)). Many allegations
Court declined to ‘‘express [a] view as to
whether they are or are not entitled to deference’’ in Comm’r v. Keystone Consol. Indus.,
Inc., 508 U.S. 152, 162 n.3, 113 S.Ct. 2006,
124 L.Ed.2d 71 (1993). Such advisory opinions are likely ‘‘entitled to respect’’ to the
extent that they have the ‘‘power to persuade’’
under the Supreme Court’s decision in Skidmore v. Swift & Co., 323 U.S. 134, 140, 65

329

concerning fiduciary conduct, such as reasonableness of ‘‘compensation for services’’
are ‘‘inherently factual question[s]’’ for
which neither ERISA nor the Department
of Labor give specific guidance. DOL Advisory Opinion 2013-03A, 2013 WL 3546834,
at *4-5.
In Renfro, we established the pleading
standard for breach of fiduciary duty under ERISA after examining the reasoning
of other Circuits that had addressed the
issue in light of Twombly and Iqbal, particularly Hecker v. Deere & Co., 556 F.3d 575
(7th Cir. 2009), and Braden v. Wal–Mart
Stores, Inc., 588 F.3d 585 (8th Cir. 2009).
The Renfro plaintiffs challenged the mix
and range of investment options in their
retirement plan, the use of asset-based
rather than per-participant fees, and the
alleged imbalance of the fees charged and
services rendered. 671 F.3d at 326. The
district court granted defendants’ motion
to dismiss, holding that ‘‘the plan offered a
sufficient mix of investments TTT [such]
that no rational trier of fact could find, on
the basis of the facts alleged in the operative complaint, that the TTT defendants
breached an ERISA fiduciary duty by offering [that] particular array of investment
vehicles.’’ Id. at 320 (citations and internal
quotation marks omitted).
We affirmed. Id. at 327-28. We determined that we could not ‘‘infer from what
[was] alleged that the [fiduciary’s] process
was flawed.’’ Id. at 327 (quoting Braden,
588 F.3d at 596). We held that ERISA
plans should offer meaningful choices to
their participants, and that:
S.Ct. 161, 89 L.Ed. 124 (1944). Christensen v.
Harris Cty., 529 U.S. 576, 587, 120 S.Ct.
1655, 146 L.Ed.2d 621 (2000) (citations omitted). See e.g. Caremark, Inc. v. Goetz, 480 F.3d
779, 790 (6th Cir. 2007) (deference to DOL
advisory opinion was warranted because of
the opinion’s persuasive force and its consistency with federal and state law and regulations).

330

923 FEDERAL REPORTER, 3d SERIES

[T]he range of investment options and
the characteristics of those included options—including the risk profiles, investment strategies, and associated fees—
are highly relevant and readily ascertainable facts against which the plausibility of claims challenging the overall
composition of a plan’s mix and range of
investment options should be measured.
Id. We explained that a fiduciary breach
claim must be examined against the backdrop of the mix and range of available
investment options. Id. We did not hold,
however, that a meaningful mix and range
of investment options insulates plan fiduciaries from liability for breach of fiduciary
duty. Such a standard would allow a fiduciary to avoid liability by stocking a plan
with hundreds of options, even if the majority were overpriced or underperforming. One important reason why we cannot
read Renfro to establish such a bright-line
rule (that providing a range of investment
options satisfies a fiduciary’s duty) is that
ERISA fiduciaries have a duty to act prudently according to current practices—as
the statute puts it, the ‘‘circumstances then
prevailing.’’ 29 U.S.C. § 1104(a)(1)(B).
Practices change over time, and bright line
rules would hinder courts’ evaluation of
fiduciaries’ performance against contemporary industry practices. Bearing these
things in mind, we turn to Sweda’s complaint to determine whether she adequately alleged fiduciary breach in Counts I,
III, and V.
2.

Conclusory allegations of fiduciary
breach

First, we must eliminate conclusory allegations from the complaint. Connelly, 809
F.3d at 787. Sweda included a few conclusory allegations, such as ‘‘a prudent process would have produced a different outcome,’’ Am. Compl. ¶75, but conclusory
statements of that variety are rare in the
complaint, and after discarding them,

many well-pleaded factual allegations remain.
3.

Well-pleaded facts alleging breach of
fiduciary duty

Sweda alleged that Penn was ‘‘responsible for hiring administrative service
providers, such as a recordkeeper, and
negotiating and approving those service
providers’ compensation.’’ Am. Compl.
¶36. She also alleged that Penn was responsible for the menu of investment options available to participants. Id. In
Count I, she alleged that Penn entered a
‘‘lock-in’’ agreement with TIAA-CREF
that mandated inclusion of the CREF
Stock and Money Market accounts, and
required the Plan to use TIAA-CREF as
a recordkeeper. Am. Compl. ¶86.
In Count III, Sweda alleged that Penn
paid excessive administrative fees, failed to
solicit bids from service providers, failed to
monitor revenue sharing, failed to leverage
the Plan’s size to obtain lower fees or
rebates, and failed to comprehensively review Plan management. Specifically, Sweda alleged that the Plan paid between
$ 4.5 and $ 5.5 million in annual recordkeeping fees at a time when similar plans
paid $ 700,000 to $ 750,000 for the same
services. Sweda also alleged that percentage-based fees went up as assets grew,
despite there being no corresponding increase in recordkeeping services. Sweda
alleged that Penn could have negotiated
for a cap on fees or renegotiated the fee
structure, but failed to do either. Sweda
also alleged that Penn could have assessed
the reasonableness of Plan recordkeeping
fees by soliciting competitive bids, but,
unlike prudent fiduciaries, failed to do so.
For contrast, Sweda offered examples of
similarly situated fiduciaries who acted
prudently, such as fiduciaries at Loyola
Marymount who hired an independent consultant to request recordkeeping proposals

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

and consolidated services with a single
provider. Sweda pointed to similar moves
at Pepperdine, Purdue, and CalTech, as
well as Caltech’s negotiation for $ 15 million in revenue sharing rebates. Sweda
alleged that unlike those organizations,
Penn failed to review Plan management,
and fell behind other fiduciaries in the
industry.
[9] In Count V, Sweda alleged that
Penn breached its fiduciary duties by: paying unreasonable investment fees, including and retaining high-cost investment options with historically poor performance
compared to available alternatives, and retaining multiple options in the same asset
class and investment style. Specifically,
Sweda alleged that despite the availability
of low-cost institutional class shares, Penn
selected and retained identically managed
but higher cost retail class shares. She
included a table comparing options in the
Plan with the readily available cheaper
alternatives.6 Sweda also alleged that some
options in the line-up had layers of unnecessary fees. Not only did Sweda allege that
the options Penn selected and retained
were imprudently costly, she also alleged
that they were duplicative thereby decreasing the value of actively managed
funds, reducing the Plan’s leverage, and
confusing participants. Sweda also alleged
that 60% of Plan options underperformed
appropriate benchmarks, and that Penn
failed to remove underperformers. Sweda
6.

Most of the investment options Sweda criticized in her complaint were designated as
Tier 3 and Tier 4 options. Sweda also criticized Tier 2 options such as the TIAA-CREF
International Equity Index Fund, listed in
Sweda’s table comparing Plan options with
their ‘‘lower-cost, but otherwise identical’’ alternatives. Sweda confirmed that criticized
options fell under Tiers 2, 3, and 4 at oral
argument. Oral Arg. at 7:33. At this time we
do not address whether Penn may be able to
assert a defense to liability under 29 U.S.C.
§ 1104(c) due to participants’ self-directed in-

331

pointed to the CREF Stock Account and
TIAA Real Estate Account as examples of
consistent underperformers. She alleged
that Penn’s process of selecting and managing options must have been flawed if
Penn retained expensive underperformers
over better performing, cheaper alternatives. At this stage, her factual allegations
must be taken as true, and every reasonable inference from them must be drawn
in her favor. Connelly, 809 F.3d at 790.
4.

Sweda plausibly stated a claim in
Counts III and V

At this final step, we employ a holistic
approach, considering all of Sweda’s wellpleaded factual allegations including the
range of investment options alongside other germane factors such as reasonableness
of fees, selection and retention of investment options, and practices of similarly
situated fiduciaries, to determine whether
her allegations plausibly demonstrate entitlement to relief. See Renfro, 671 F.3d at
327; see also Braden, 588 F.3d at 598
(statute’s remedial scheme ‘‘counsel[s]
careful and holistic evaluation of an
ERISA complaint’s factual allegations before concluding that they do not support a
plausible inference that the plaintiff is entitled to relief.’’). The complaint should not
be ‘‘parsed piece by piece to determine
whether each allegation, in isolation, is
plausible.’’ Braden, 588 F.3d at 594. See
Tatum v. RJR Pension Inv. Comm., 761
vesting activity. The § 1104(c) safe harbor
defense is an affirmative defense and therefore it is generally not part of a court’s consideration of a motion to dismiss under Rule
12(b)(6), except where the defense has been
anticipated by a plaintiff’s complaint. Hecker,
556 F.3d at 588 (citing In re Unisys, 74 F.3d
at 446 for the classification of § 1104(c) as an
affirmative defense). Unlike the plaintiffs in
Hecker who explicitly and ‘‘thoroughly anticipated’’ the safe harbor defense, Sweda did not
‘‘put it in play’’ at the pleadings stage. Id.

332

923 FEDERAL REPORTER, 3d SERIES

F.3d 346, 360 (4th Cir. 2014) (citing DiFelice, 497 F.3d at 420) (courts must look to
the totality of the circumstances to assess
the prudence of investment decisions).
[10] Sweda plausibly alleged breach of
fiduciary duty. Sweda’s factual allegations
are not merely ‘‘unadorned, the-defendant-unlawfully-harmed-me accusation[s].’’
Iqbal, 556 U.S. at 678, 129 S.Ct. 1937. As
recounted above, they are numerous and
specific factual allegations that Penn did
not perform its fiduciary duties with the
level of care, skill, prudence, and diligence to which Plan participants are statutorily entitled under § 1104(a)(1). Sweda
offered specific comparisons between returns on Plan investment options and
readily available alternatives, as well as
practices of similarly situated fiduciaries
to show what plan administrators ‘‘acting
in a like capacity and familiar with such
matters would [do] in the conduct of an
enterprise of a like character and with
like aims.’’ 29 U.S.C. § 1104(a)(1)(B).7 The
allegations plausibly allege that Penn
failed to ‘‘defray[ ] reasonable expenses of
administering the plan’’ and otherwise
failed to ‘‘discharge [its] duties’’ according
to the prudent man standard of care. Id.
§ 1104(a)(1)(A)(ii) and (B).
Other appellate courts have found that
similar conduct plausibly indicates breach
of fiduciary duty. For instance, in Tussey
v. ABB, Inc., the Eighth Circuit held that
the district court did not err in finding
fiduciaries breached their duties by ‘‘[failing to] (1) calculate the amount the Plan
7.

Sweda also directly compared fees on options included in the Plan with readily available lower-cost options. The dissent suggests
that because the range of fees on options
included in the Plan is lower than the range
of challenged fees in Renfro, Sweda needed to
allege a change in market circumstances
since Renfro was decided to state a plausible
claim. In making that suggestion, the dissent
misses the object of our inquiry, that is,

was paying [the recordkeeper] for recordkeeping through revenue sharing, (2) determine whether [the recordkeeper’s] pricing was competitive, [or] (3) adequately
leverage the Plan’s size to reduce fees,’’
among other things. 746 F.3d 327, 336 (8th
Cir. 2014). In Tibble IV, the Ninth Circuit
held that whether a fiduciary breached its
fiduciary duties by selecting a higher cost
share class was an issue requiring development by the district court, and remanded
the case for further proceedings. 843 F.3d
at 1197-98.
In dismissing the claims in Counts III
and V, the District Court erred by ‘‘ignor[ing] reasonable inferences supported
by the facts alleged,’’ and by drawing ‘‘inferences in [Defendants’] favor, faulting
[Plaintiffs] for failing to plead facts tending to contradict those inferences.’’ Braden, 588 F.3d at 595. While Sweda may not
have directly alleged how Penn mismanaged the Plan, she provided substantial
circumstantial evidence from which the
District Court could ‘‘reasonably infer’’
that a breach had occurred. Pension Benefit Guar. Corp. ex rel. St. Vincent Catholic
Med. Ctrs. Ret. Plan v. Morgan Stanley
Inv. Mgmt. Inc., 712 F.3d 705, 718 (2d Cir.
2013) (citation and internal quotation
marks omitted). Based on her allegations,
the claims in Counts III and V should not
have been dismissed.
[11] Penn argues that allowing Sweda
to proceed on this complaint ignores fiduciary discretion, and also argues that it in
fact employed a prudent process in its
Penn’s ‘‘conduct in arriving at an investment
decision.’’ In re Unisys, 74 F.3d at 434 (citations omitted). To that end, the allegations in
Sweda’s complaint show that Penn frequently
selected higher cost investments when identical lower-cost investments were available.
This is one of many allegations that, together,
plausibly allege that Penn breached its fiduciary duty.

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

Plan management. Finally, Penn argues
that reversal would overexpose ERISA fiduciaries to liability. According to Penn,
ERISA fiduciaries are ‘‘afforded a healthy
measure of discretion in deciding what is
in the plan participants’ interests.’’ Br. of
Appellees at 2. At oral argument, Penn
emphasized fiduciary discretion, calling it
the ‘‘hallmark of fiduciary activity.’’ Oral
Arg. at 25:05. Penn is not incorrect that
the exercise of discretionary authority
over plan assets is a characteristic of fiduciaries such that courts can identify fiduciaries by this trait, see Pohl v. Nat’l Benefits Consultants, Inc., 956 F.2d 126, 129
(7th Cir. 1992), nor is Penn incorrect that
discretion is an important aspect of fiduciary behavior that the courts should consider in evaluating fiduciary performance.
ERISA fiduciaries, like trustees, are afforded discretion because ‘‘[t]here are no
universally accepted and enduring theories
of financial markets or prescriptions for
investment that can provide clear and specific guidance,’’ therefore ‘‘[v]aried approaches to the prudent investment’’ of
assets are permissible. Restatement
(Third) of Trusts § 90 (2007), cmt. f.
[12, 13] However, while fiduciaries
have discretion in plan management, that
discretion is bounded by the prudent man
standard. Discretion ‘‘does not mean TTT
that the legal standard of prudence is
without substantive content or that there
are no principles by which the fiduciary’s
conduct may be guided and judged,’’ rather a fiduciary’s conduct at all times ‘‘must
be reasonably supported in concept and
must be implemented with proper care,
skill, and caution.’’ Id. Fiduciary discretion
8.

As well as the American Association of State
Colleges and Universities (AASCU), Association of American Universities (AAU), Association of Community College Trustees (ACCT),
Association of Public and Land Grant Universities (APLU), College and University Professional Association for Human Resources

333

must be exercised within the statutory parameters of prudence and loyalty. See
DOL Advisory Op. 2006-08A, 2006 WL
2990326, at *3. Those parameters impose a
fiduciary standard that is considered ‘‘the
highest known to the law.’’ Tatum, 761
F.3d at 355–56 (quoting Donovan v. Bierwirth, 680 F.2d 263, 272 n.8 (2d Cir. 1982)).
See Varity Corp. v. Howe, 516 U.S. 489,
497, 116 S.Ct. 1065, 134 L.Ed.2d 130 (1996)
(ERISA fiduciary duty may even exceed
fiduciary duty as derived from the common
law of trusts). Therefore, while we recognize and appreciate fiduciary discretion, if
there is indeed a ‘‘hallmark’’ of fiduciary
activity identified in the statute, it is prudence. See 29 U.S.C. § 1104(a).
As to Penn’s second argument, that it
did in fact employ a prudent process, this
argument goes to the merits and is misplaced at this early stage. Although Penn
may be able to demonstrate that its process was prudent, we are not permitted to
accept Penn’s account of the facts or draw
inferences in Penn’s favor at this stage of
litigation. Finally, we address Penn’s argument, supported by amici including the
American Council on Education and the
Chamber of Commerce of the United
States of America 8, that allowing Sweda’s
complaint through the 12(b)(6) gate will
overexpose plan sponsors and fiduciaries
to costly litigation and will discourage
them from offering benefit plans at all. Br.
of Appellees at 38. Penn predicts that reversal would ‘‘give class action lawyers a
free ticket to discovery and the opportunity to demand extortionate settlements.’’
Id.9 Penn’s solution is to interpret Renfro
to mean that if a plan fiduciary provides a
(CUPA-HR), Council of Independent Colleges
(CIC), National Association of Independent
Colleges and Universities (NAICU), and the
American Benefits Council.
9.

The dissent also expresses concern that reversal will overexpose university sponsors and
volunteer fiduciaries to class action claims

334

923 FEDERAL REPORTER, 3d SERIES

‘‘mix and range of investment options,’’
plaintiffs cannot plausibly allege breach of
fiduciary duty.
[14] The Supreme Court addressed a
nearly identical concern in Fifth Third
Bancorp. There, the defendants ‘‘[sought]
relief from what they believe[d were]
meritless, economically burdensome lawsuits.’’ 134 S.Ct. at 2470. The Court explained that while Congress, through
ERISA, sought to encourage creation of
retirement plans, that purpose was not
intended to prevent participants with
meritorious claims from gaining access to
the courts. Id. While Fifth Third concerned an ESOP plan and defendants’ redesigned to yield large settlements and significant attorneys’ fees. The dissent fears that
universities will be less likely to offer benefit
plans and fiduciaries less likely to volunteer
their services. If that is the case, we should
leave it to Congress to address the possibility
of a different fiduciary standard that is suitable to the goal of inducing universities to
offer plans and would-be fiduciaries to volunteer. As it stands, ERISA fiduciaries are held
to one standard under § 1104 and we cannot
adjust our pleadings standards to accommodate subcategories of sponsors and fiduciaries.
10. The dissent argues that we ought to affirm
the District Court’s dismissal of Count V for
Sweda’s want of constitutional standing under Edmonson v. Lincoln Nat’l Life Ins. Co.,
725 F.3d 406 (3d Cir. 2013). The dissent argues that because Sweda conceded that most
of the underperforming options are in Tiers 3
and 4, the plaintiffs should have included
information about whether they invested in
Tier 3 or Tier 4 options in the complaint. In
the dissent’s view, plaintiffs’ failure to include
that information constitutes a failure to allege
an injury in fact. However, while the complaint does not identify plaintiffs’ investment
options by tier, it does contain facts that indicate that the named plaintiffs invested in the
underperforming investment options. In a
paragraph entitled ‘‘Standing’’ in the complaint, Sweda included the following information:
To the extent the Plaintiffs must also
show an individual injury TTT each Plaintiff has suffered such an injury, in at least

quest for a presumption of prudence, its
reasoning is apt here. Despite our appreciation of Penn and amici’s fear of frivolous litigation, if we were to interpret
Renfro to bar a complaint as detailed and
specific as the complaint here, we would
insulate from liability every fiduciary who,
although imprudent, initially selected a
‘‘mix and range’’ of investment options.
Neither the statute nor our precedent justifies such a rule. We will therefore reverse the District Court’s dismissal of the
claims in Counts III and V, and remand
for further proceedings.10
We will affirm dismissal of Count I because it is time barred. Fairview Twp. v.
the following ways TTT The named Plaintiffs’ individual accounts in the Plan were
further harmed by Defendants’ breaches
of fiduciary duties because one or more
of the named Plaintiffs during the proposed class period (1) invested in underperforming options including the CREF
Stock and TIAA Real Estate accounts[.]
App. 36-37. This allegation links the named
plaintiffs with the underperforming investment options and is sufficient to show individual injuries.
In light of the dissent’s point on constitutional standing, we should address the issue
as it pertains to participants and beneficiaries
who bring a civil action against fiduciaries
under 29 U.S.C. § 1132(a)(2). The dissent
cites this Court’s decision in Perelman v. Perelman, where we held that participants in a
defined benefit plan could not show actual
injury for constitutional standing for an
§ 1132(a)(3) claim by pointing to a ‘‘diminution of plan assets’’ because such participants
are entitled to a fixed periodic payment rather
than part of the asset pool. 793 F.3d 368, 374
(3d Cir. 2015). We also noted that ‘‘[t]here is
no question that representative suits by plan
participants or beneficiaries against fiduciaries for breach of fiduciary duty are permitted
by, and generally brought under, ERISA
§ [1132(a)(2) ].’’ Id. at 376 n.6. This case implicates the latter part of our observation in
Perelman because Sweda brought this suit
under § 1132(a)(2) on behalf of the Plan.

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

U.S. Envtl. Prot. Agency, 773 F.2d 517,
525 n.15 (3d Cir. 1985) (we may affirm on
any basis). Sweda limited her claim to the
initial agreement between the Plan and
TIAA-CREF to include the CREF Stock
and Money Market accounts in the Plan,
and to use TIAA-CREF for recordkeeping. This agreement was entered into prior
to December 31, 2009, and Sweda filed her
initial complaint on August 10, 2016. Sweda did not present this claim as an ongoing
breach like the petitioners in Tibble III,
––– U.S. ––––, 135 S.Ct. 1823. Although we
must draw every reasonable inference in
Sweda’s favor, we will not read factual
allegations into a complaint. Count I is
therefore time barred under the six-year
statute
of
limitations.
29
U.S.C.
§ 1113(1).11
Section 1106(a)(1) claims (Counts II,
IV, and VI)

C.
1.

Elements of
§ 1106(a)(1)

a

claim

under

335

points to a Department of Labor advisory
opinion holding that a life insurance company that provided recordkeeping and related services to a retirement plan would
be a party in interest under the statute.
See DOL Advisory Opinion 2013-03A, 2013
WL 3546834. Importantly, an investment
company does not become a party in interest merely because a plan invests in securities issued by the investment company.
29 U.S.C. § 1002(21)(B).
Fiduciaries are prohibited from causing
a plan to engage in the transactions listed
at § 1106(a)(1). Those transactions are:
(A) sale or exchange, or leasing, of any
property between the plan and a party
in interest; (B) lending of money or other extension of credit between the plan
and a party in interest; (C) furnishing of
goods, services, or facilities between the
plan and a party in interest; (D) transfer
to, or use by or for the benefit of a party
in interest, of any assets of the plan; or
(E) acquisition, on behalf of the plan, of
any employer security or employer real
property in violation of section 1107(a) of
this title.

[15] Section 1106(a) supplements the
fiduciary duties by specifically prohibiting
certain transactions between plans and
parties in interest. The elements of a party-in-interest, prohibited transaction claim
are: (1) the fiduciary causes (2) a listed
transaction to occur (3) between the plan
and a party in interest. 29 U.S.C.
§ 1106(a)(1). ERISA defines ‘‘party in interest’’ as ‘‘a person providing services to
such plan.’’ 29 U.S.C. § 1002(14)(B). Sweda
argues that TIAA-CREF and Vanguard
are parties in interest according to the
plain language of § 1002(14)(B). She also

Between the definition of service providers
as parties in interest, id. § 1002(14)(B),
and this exhaustive list of prohibited transactions, § 1106(a)(1) could be read to have
an extremely broad application. Some
courts have embraced that breadth and
interpreted § 1106(a)(1) to prohibit almost
any transaction with a party in interest.
The Seventh Circuit, for example, has held
that § 1106(a)(1) creates a per se rule

11. No action may be commenced under this
subchapter with respect to a fiduciary’s
breach of any responsibility, duty, or obligation under this part, or with respect to a
violation of this part, after the earlier of-(1) six years after (A) the date of the last
action which constituted a part of the
breach or violation, or (B) in the case of an
omission the latest date on which the fidu-

ciary could have cured the breach or violation, or
(2) three years after the earliest date on
which the plaintiff had actual knowledge of
the breach or violation;
except that in the case of fraud or concealment, such action may be commenced not
later than six years after the date of discovery
of such breach or violation. 29 U.S.C. § 1113.

336

923 FEDERAL REPORTER, 3d SERIES

against party in interest transactions, so
that plaintiffs who allege such transactions
may do so without even pleading unreasonableness of fees. Allen v. GreatBanc Trust
Co., 835 F.3d 670, 676 (7th Cir. 2016). In
Allen, the Seventh Circuit ruled that the
exemptions from prohibited transactions,
under 29 U.S.C. § 1108, are affirmative
defenses, and that ‘‘plaintiff[s] ha[ve] no
duty to negate any or all of them’’ in a
complaint. Id. It also noted that five other
circuits (the Second, Fourth, Fifth, Eighth,
and Ninth) have ruled similarly. Id. See
Braden, 588 F.3d at 600-01 (plaintiff did
not have to plead facts ‘‘raising a plausible
inference that the payments were unreasonable’’ because exemption in § 1108 is a
defense raised by defendant). Responding
to concerns about a flood of prohibited
transaction claims, the Seventh Circuit
reasoned that Rule 11 sanctions and reasonable risk aversion would prevent the
floodgates from opening. Allen, 835 F.3d
at 677.
[16] We decline to read § 1106(a)(1) as
the Seventh Circuit does because it is improbable that § 1106(a)(1), which was designed to prevent ‘‘transactions deemed
likely to injure the TTT plan’’ and ‘‘selfdealing,’’ Nat’l Sec. Sys., Inc., 700 F.3d at
92 (citation and internal quotation marks
omitted), would prohibit ubiquitous service
transactions and require a fiduciary to
plead reasonableness as an affirmative defense under § 1108 to avoid suit. Not even
Sweda advocates for such a broad reading
of § 1106(a)(1), conceding in her complaint
that ‘‘paying for recordkeeping with assetbased revenue sharing is not [a] per se
violation of ERISA.’’ Am. Compl. ¶101.
One of the reasons we do not find Allen
persuasive is that the transactions the Seventh Circuit scrutinized in Allen were a far
cry from the ordinary service arrangements at issue here. In Allen, an ESOP
fiduciary bought the employer’s stock using a loan financed by the principal share-

holders of the company. The value of the
stock then fell so drastically that ‘‘[t]he
Plan’s participants, all employees of [the
company], wound up being on the hook for
interest payments on the loan.’’ Allen, 835
F.3d at 673. A transaction of that variety is
far removed from ordinary recordkeeping
arrangements. Therefore, Allen does not
provide sufficient justification to recognize
a per se rule that every furnishing of
goods or services between a plan and party in interest is a prohibited transaction
under § 1106(a)(1).
Our ruling today does not conflict with
our earlier decisions holding that transactions between a plan and plan fiduciaries
are per se prohibited under § 1106(b). See
Cutaiar, 590 F.2d at 528; see also Nat’l
Sec. Sys., Inc., 700 F.3d at 94. In Cutaiar,
we held that ‘‘[w]hen identical trustees of
two employee benefit plans whose participants and beneficiaries are not identical
effect a loan between the plans without a
[§ 1108] exemption, a per se violation of
ERISA exists’’ under § 1106(b)(2). 590
F.2d at 529. In National Security Systems, we held that a transaction between a
plan and fiduciary that is tainted by selfdealing is a per se violation of § 1106(b)(3)
‘‘regardless of the reasonableness of compensation.’’ 700 F.3d at 93. Those cases do
not control here because § 1106(a) and (b)
have distinct purposes: ‘‘[s]ubsection (a)
erects a categorical bar to transactions
between the plan and a ‘party in interest’
deemed likely to injure the plan,’’ and
‘‘[s]ubsection (b) prohibits plan fiduciaries
from entering into transactions with the
plan tainted by conflict-of-interest and selfdealing concerns.’’ Id. at 82. The protective
function of ERISA is at its height in the
latter scenario when there is a risk of
fiduciary self-dealing. The instances where
participants might benefit from a transaction between a plan and a fiduciary are so
rare that they can be prohibited outright.

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

Reading § 1106(a)(1) as a per se rule
barring all transactions between a plan
and party in interest would miss the balance that Congress struck in ERISA, because it would expose fiduciaries to liability for every transaction whereby services
are rendered to the plan. See Renfro, 671
F.3d at 321 (‘‘In enacting ERISA, Congress ‘resolved innumerable disputes between powerful competing interests—not
all in favor of potential plaintiffs.’ ’’ (quoting Mertens v. Hewitt Assocs., 508 U.S.
248, 262, 113 S.Ct. 2063, 124 L.Ed.2d 161
(1993))). Additionally, if we interpreted
§ 1106(a)(1) to prohibit every transaction
for services to a plan, we would have to
ignore other parts of the statute. For instance, ERISA specifically acknowledges
that certain services are necessary to administer
plans.
See
29
U.S.C.
§ 1104(a)(1)(A)(ii).
Interpreting
§ 1106(a)(1) to prohibit necessary services
would be absurd, and when one interpretation of a statute leads to an absurd result,
we may consider an alternative interpretation that avoids the absurdity. Thorpe v.
Borough of Jim Thorpe, 770 F.3d 255, 263
(3d Cir. 2014) (quoting First Merchants
Acceptance Corp. v. J.C. Bradford & Co.,
198 F.3d 394, 402 (3d Cir. 1999)). Therefore we decline to interpret § 1106(a)(1) as
prohibiting per se the ‘‘furnishing of goods
[or] services,’’ 29 U.S.C. § 1106(a)(1)(C),
by all ‘‘person[s] providing services to [the]
plan,’’ id. § 1002(14)(B).12
The Supreme Court similarly avoided
absurdity in its interpretation of
§ 1106(a)(1) in Lockheed Corp. (addressing
whether the administrator of a plan could
condition payment on performance by par12. Moreover, § 1106(a) was not designed to
prevent negotiation between unaffiliated parties. See Lockheed Corp. v. Spink, 517 U.S.
882, 893, 116 S.Ct. 1783, 135 L.Ed.2d 153
(1996). Thus, if a service provider has no
prior relationship with a plan before entering
a service agreement, the service provider is

337

ticipants). The Court held that payments
of benefits to a participant, which under a
hyper-literal reading of the statute could
be understood as ‘‘a transfer to, or use by
or for the benefit of a party in interest, of
any assets of the plan,’’ 29 U.S.C.
§ 1106(a)(1)(D), was not a prohibited
transaction. Lockheed Corp., 517 U.S. at
892-93, 116 S.Ct. 1783. The Supreme Court
rejected the hyper-literal reading because
it would have been absurd and illogical in
the context of the statute. Id. The Court
went
through
the
subsections
of
§ 1106(a)(1), listing the different statutorily prohibited transactions, and explained
that they follow a common thread: they
are all ‘‘commercial bargains that present
a special risk of plan underfunding because
they are struck with plan insiders, presumably not at arm’s length.’’ Id. at 893, 116
S.Ct. 1783. The Court distinguished payment of plan benefits because they ‘‘cannot
reasonably be said to share that characteristic.’’ Id.
[17] We
have
interpreted
§ 1106(a)(1)(D) similarly, holding that a
violation occurs when: (1) a fiduciary, (2)
causes a plan to engage in a transaction,
(3) that uses plan assets, (4) for the benefit
of a party in interest, and (5) ‘‘the fiduciary
‘knows or should know’ that elements
three and four are satisfied.’’ Reich v.
Compton, 57 F.3d 270, 278 (3d Cir. 1995).
In Reich, we held that specific intent is
required because of the plain meaning of
the statutory phrase ‘‘for the benefit,’’ and
also because if § 1106(a)(1)(D) did not require ‘‘subjective intent to benefit a party
in interest, [it] would produce unreasonnot a party in interest at the time of the
agreement. As explained herein, it only becomes a party in interest after the initial
transaction occurs, and subsequent transactions are not prohibited absent self-dealing or
disloyal conduct.

338

923 FEDERAL REPORTER, 3d SERIES

able consequences that we feel confident
Congress could not have wanted.’’ Id. at
279.
[18] The Supreme Court’s identification of the common thread in § 1106(a)(1),
a special risk to the plan from a transaction presumably not at arm’s length—and
its determination that transactions that do
not share that common thread are permissible—as well as our interpretation of
§ 1106(a)(1)(D), represent a more harmonious way to interpret the prohibited
transactions listed in § 1106(a)(1) in the
context of the statute as a whole. The
element of intent to benefit a party in
interest
effects
the
purpose
of
§ 1106(a)(1), which is to rout out transactions that benefit such parties at the expense of participants. Section 1106(a)(1) is
not meant to impede necessary service
transactions, but rather transactions that
present legitimate risks to participants and
beneficiaries such as ‘‘securities purchases
or sales by a plan to manipulate the price
of the security to the advantage of a partyin-interest.’’ Leigh v. Engle, 727 F.2d 113,
127 (7th Cir. 1984) (quoting H.R. Conf.
Rep. No. 1280, 93rd Cong., 2d Sess. 308)
(alteration omitted). We therefore hold
that absent factual allegations that support
an element of intent to benefit a party in
interest, a plaintiff does not plausibly allege that a ‘‘transaction that constitutes a
direct or indirect TTT furnishing of goods,
services, or facilities between the plan and
a party in interest’’ prohibited by
§ 1106(a)(1)(C) has occurred. Requiring
plaintiffs to allege facts supporting this
element avoids absurdity in interpreting
the statute.
2.

Conclusory and well-pleaded factual
allegations of prohibited transactions

The factual allegations that Sweda included in her complaint to support her
claims for prohibited transactions overlap

with the allegations supporting her fiduciary breach claims. Besides the allegations recounted above, Sweda alleged that
revenue sharing was ‘‘kicked back’’ to
TIAA-CREF for recordkeeping associated
with TIAA-CREF options. Am. Compl.
¶109. She alleged that Penn ‘‘allowed
TIAA’s financial interest to dictate the
Plan’s investment selections and recordkeeping arrangement.’’ Am. Compl. ¶87.
She also alleged that Penn failed to act in
the exclusive interest of participants, instead ‘‘serv[ing] TIAA-CREF’s and Vanguard’s financial interests’’ with decisions
such as ‘‘allowing TIAA-CREF and Vanguard to put their proprietary investments
in the Plan without scrutinizing those providers’ financial interest.’’ Am. Compl.
¶¶112, 200. These general allegations
about kickbacks and prioritizing TIAACREF and Vanguard’s financial interests
over the participant and beneficiaries’ financial interests are largely conclusory,
but we also consider well-pleaded factual
allegations summarized at § III.B.3 that
are relevant to Sweda’s prohibited transaction claims.
3.

Sweda failed to plausibly state a
claim under Counts II, IV, and VI

Looking at the totality of the allegations
in the complaint, taken as true, Connelly,
809 F.3d at 787, Sweda failed to state a
plausible claim for prohibited transactions
in Counts II, IV, and VI.
a.

Count II

[19] In Count II, Sweda alleged that a
prohibited transaction occurred when
Penn allowed TIAA-CREF to require inclusion of CREF Stock and Money Market
accounts among the Plan’s investment options and agreed to TIAA-CREF recordkeeping services, pursuant to a ‘‘lock-in’’
agreement. Am. Compl. ¶193. Two of Sweda’s prohibited transaction claims emanate

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

from this agreement: (1) that a prohibited
transaction occurred at the time of the
initial agreement, and (2) that a prohibited
transaction occurred every time fees were
later paid pursuant to the agreement. As
to the initial agreement, Sweda did not
sufficiently allege that TIAA-CREF was a
party in interest at that time: she included
no allegation that TIAA-CREF was ‘‘providing services to [the] plan,’’ 29 U.S.C.
§ 1002(14)(B). Because Sweda failed to allege that TIAA-CREF was a party in interest at the time of the ‘‘lock-in,’’ that
element is factually unsupported, and she
failed to state a claim for the first alleged
prohibited transaction in Count II. Sweda’s second claim in Count II that prohibited transactions occurred every time
property was exchanged or services were
rendered pursuant to the ‘‘lock-in’’ agreement is so closely related to Count IV
(payment of recordkeeping fees) that we
will address these claims together.
b.

Counts II and IV

In Counts II and IV, Sweda alleged that
Penn caused the Plan to enter prohibited
transactions when it caused the Plan to
pay administrative fees to TIAA-CREF
and Vanguard. Sweda plausibly alleged
that TIAA-CREF and Vanguard were parties in interest under § 1002(14)(B) because they provided services to the plan at
the time fees were paid, and Penn’s own
Plan materials identify TIAA-CREF and
Vanguard as parties in interest. At the
pleadings stage, we must assume that this
well-pleaded fact is true. Next we look to
whether Penn caused the Plan to enter a
prohibited transaction with TIAA-CREF
or Vanguard for administrative fees. Sweda alleged that the administrative fee payments constituted prohibited transactions
under § 1106(a)(1) in three ways: (1) they
were prohibited transfers of property under § 1106(a)(1)(A), (2) they were transfers of assets under subsection (D), and (3)

339

they constituted furnishing of services under subsection (C). We first address
whether Sweda plausibly alleged that administrative fee payment by revenue sharing constituted a transfer of property under (A) or Plan assets under (D).
[20] Sweda alleged that administrative
fees were paid by revenue sharing. Am.
Compl. ¶¶ 46, 110 (Vanguard is ‘‘compensated for recordkeeping services based on
internal revenue sharing it receives from
the Vanguard Investor share class mutual
funds.’’). She also alleged that investment
fees were drawn from mutual fund assets.
Am. Compl. ¶44. (‘‘Mutual fund fees are
usually expressed as a percentage of assets under management TTT [t]he fees deducted from a mutual fund’s assets TTT’’).
Mutual fund assets are distinct from Plan
assets, because, under the statute, assets
of ‘‘a plan which invests in any security
issued by an investment company’’ do not
‘‘include any assets of such investment
company.’’ 29 U.S.C. § 1101(b)(1). See
Hecker, 556 F.3d at 584 (With support
from the Department of Labor, defendants
demonstrated that revenue sharing fees
did not impinge plan assets because they
were drawn from the assets of mutual
funds). Therefore, Sweda did not plausibly
allege that revenue sharing involved a
transfer of Plan property or assets under
§ 1106(a)(1)(A) or (D), and furthermore,
Sweda did not plausibly allege that Penn
had subjective intent to benefit a TIAACREF or Vanguard by a use or transfer of
Plan assets, which, under our precedent, is
required to state a claim under
§ 1106(a)(1)(D). Reich, 57 F.3d at 279.
[21] Finally, we must address whether
a prohibited transaction occurred under
§ 1106(a)(1)(C), the prohibition of ‘‘furnishing of goods, services, or facilities between
the plan and a party in interest.’’ As we
explained above, it is possible to read sub-

340

923 FEDERAL REPORTER, 3d SERIES

section (C) to create a per se prohibited
transaction rule forbidding service arrangements between a plan and a party
rendering services to the plan. However,
because reading § 1106(a)(1)(C) to that
end would be absurd, Sweda must plead an
element of intent to benefit the party in
interest. After striking conclusory allegations, such as ‘‘Defendants served TIAACREF’s and Vanguard’s financial interests’’ (Am. Compl. ¶112) from the complaint, we do not find that Sweda alleged
facts showing that Penn intended to benefit TIAA-CREF or Vanguard. We will affirm the dismissal of Sweda’s claims for
prohibited transactions under Counts II
and IV.
c.

Count VI

[22] At Count VI, Sweda alleged that
Penn caused the Plan to engage in prohibited transactions when it caused the Plan
to pay investment fees to TIAA-CREF
and Vanguard. For similar reasons that
Sweda did not plausibly allege prohibited
transactions in Counts II and IV, she also
failed to plausibly allege prohibited transactions in Count VI. First, Sweda did not
plausibly allege that payment of investment fees constituted a prohibited transaction under § 1106(a)(1)(A), because Sweda
alleged that investment fees were drawn
from mutual fund assets, not Plan assets.
Second, for the same reason, investment
fees were not plausibly alleged to be a
transfer of assets of the Plan under
§ 1106(a)(1)(D). Third, Sweda did not allege that Penn intended to benefit TIAACREF or Vanguard under § 1106(a)(1)(D),
as required by our precedent. Reich, 57
F.3d at 279. Finally, as we explained above
in our discussion of Counts II and IV, in
order to state a claim for prohibited transactions under § 1106(a)(1)(C), ‘‘furnishing
goods, services, or facilities between the
1.

Sec’y, U.S. Dep’t of Labor v. Kwasny, 853

plan and a party in interest,’’ a plaintiff
must allege intent to benefit a party in
interest. Sweda failed to do so. Therefore,
we will affirm the dismissal of the claim for
prohibited transactions under Count VI.
IV.
Sweda plausibly alleged that Penn failed
to conform to the high standard required
of plan fiduciaries under 29 U.S.C.
§ 1104(a)(1). However, she did not plausibly allege that Penn caused the Plan to
enter prohibited transactions under
§ 1106(a)(1). We therefore will REVERSE
the portion of the District Court’s order
granting the Appellees’ motion to dismiss
Counts III and V and remand for further
proceedings. We will AFFIRM the District
Court’s order dismissing Counts I, II, IV,
VI, and VII.
ROTH, Senior Judge, concurring in part
and dissenting in part:
Like many large employers, the University of Pennsylvania maintains a retirement plan for its employees. Between 2009
and 2014, the plan’s assets increased in
value by $ 1.6 billion, a 73% return on
investment. Despite this increase, plaintiffs have filed a putative class action,
claiming that the plan’s fiduciaries have
imprudently managed it and seeking tens
of millions of dollars of damages. Having
convinced this Court to reverse in part the
District Court’s dismissal of the action, the
plaintiffs will continue to pursue their remaining claims, which will be litigated extensively, at large cost to the university.
As a result, the university is in an unenviable position, in which it has every incentive to settle quickly to avoid (1) expensive
discovery and further motion practice, (2)
potential individual liability for named fiduciaries,1 and (3) the prospect of damages
F.3d 87, 91–92 (3d Cir. 2017).

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

calculations, after lengthy litigation, with
interest-inflated liability totals.
This pressure to settle increases with
the size of the plan, regardless of the
merits of the case. Alleged mismanagement of a $ 400,000 plan will expose fiduciaries to less liability than mismanagement of a $ 4 billion plan. Thus,
notwithstanding the strength of the
claims, a plaintiff’s attorney, seeking a
large fee, will target a plan that holds
abundant assets. I am concerned that
this is the case both here and in numerous other lawsuits that have targeted large corporations and universities
that administer some of the largest retirement plans in the country.2

341

proceed in litigation, that the university
will be responsible for any damages
award. This reality demands that cases
such as this one be carefully scrutinized
in order not to permit implausible allegations to result in a large settlement, under which a substantial portion of the
funds that are to be reimbursed to retirement plans are instead diverted to attorneys’ fees.

This strategy has substantial consequences for fiduciaries of these plans,
particularly at universities. While the fiduciaries for large corporations may have
experience in dealing with potential liabilities, fiduciaries at universities are often
staff members who volunteer to serve in
these roles.3 Even though indemnification
agreements exist for these individual
members, as long as they are party to the
suit they will be required to disclose this
litigation in personal financial transactions.4 Moreover, universities, which unlike large corporations are not typically in
the business of profitmaking, must keep
in mind, when determining how best to

Ultimately, this case presents a question
virtually identical to the one addressed by
this Court seven years ago, in Renfro v.
Unisys Corp.5: Does an ERISA plan fiduciary acting in good faith, under the prudent person standard, have a duty to do
more than provide a wide, reasonable, and
low-cost variety of investment options for
individual plan beneficiaries who want to
have control over their own investment
portfolio? Plaintiffs contend that because
the pleadings have identified specific problematic funds in the mix and range offered by defendants, the answer should be
yes. The majority agrees, holding that the
administrators of a pension plan must ensure that sophisticated investors receive
the best version of each plan available.
This departs from the core principles in
Renfro, set out above, which the District
Court followed faithfully. For these reasons, I would affirm in full the District

2.

For a representative sample of cases plaintiffs’ counsel has brought against corporations
and universities respectively, see infra notes
26–27.

4.

3.

While this suit does not name the members
of the Investment Committee as defendants,
and the record does not specify the members
of the Investment Committee or their roles
within the university, other suits name staff
members as individual defendants. E.g., Tracey v. Mass. Inst. Of Tech., No. 16-11620,
2017 WL 4453541 (Aug. 31, 2017), adopted in
part and rejected in part, 2017 WL 4478239
(Oct. 4, 2017).

5.

See Cunningham v. Cornell Univ., No. 16-cv6525, 2018 WL 1088019, at *1 (Jan. 19, 2018)
(‘‘Plaintiffs shall address why they need to
name 29 additional individuals as defendants
other than (a) they think they can; and (b) the
assertion of multi-million dollar claims
against these individuals who served on a
committee at their employer’s request has the
tremendous power to harass these individuals
because they will be required to list the lawsuit on every auto, mortgage or student financial aid application they file.’’).
671 F.3d 314, 327–28 (3d Cir. 2011).

342

923 FEDERAL REPORTER, 3d SERIES

Court’s dismissal of the amended complaint.
I
The Plan, as explained by the District
Court, is a defined-contribution plan that
offers its beneficiaries four levels of involvement in their investments. The first
tier is a ‘‘do-it-for-me’’ tier, where investors have their choice between a TIAA
target fund and a Vanguard target fund,
which funds automatically adjust their investment strategy with no input from the
beneficiary, based on an expected retirement date. Tier 2 is a ‘‘help-me-do-it’’ tier,
which allows a beneficiary to select from a
group of eight options and weigh them as
preferred. The third tier is a ‘‘mix-myown’’ tier, which provides a few options for
each of nine types of funds. And finally,
Tier 4 is a ‘‘self-directed’’ tier, which provides access to the full panoply of 78 funds
offered by defendants.6

been switched to institutional classes over
time. Plaintiffs also challenge the method
in which fees are calculated (Count III),
stating that an asset-based calculation has
overcompensated the record keepers and
that a failure to negotiate rebates constituted a breach of fiduciary duty.
At argument, when asked about the four
separate tiers of beneficiary involvement,
plaintiffs stated that the funds being challenged were largely related to Tiers 3 and
4, and in a follow-up response, specifically
excluded Tier 1 from the scope of the
complaint.
II

Of these 78 investment options, virtually
all are mutual funds. Over the course of
the class period, the proportion of retailclass mutual funds, as opposed to cheaper
institutional-class mutual funds, has varied.
Appellants have specifically challenged 58
of these retail-class funds as having had
cheaper but otherwise identical institutional-class analogues at some point during the
class period (Count V). Defendants note in
this connection that dozens of funds have

It is well established that ERISA was
intended to be a ‘‘comprehensive and reticulated’’ statute 7 enacted after ‘‘a decade
of congressional study of the Nation’s private employee benefit system.’’8 ERISA
‘‘resolved innumerable disputes between
powerful competing interests—a balance
between encouraging the creation of plans
and ensuring enforcement of rights under
a plan.’’9 Congress intended to create a
system ‘‘that is [not] so complex that administrative costs, or litigation expenses,
unduly discourage employers from offering
[ERISA] plans in the first place.’’10 Instead, ERISA’s purpose is, in part, to ‘‘assur[e] a predictable set of liabilities, under
uniform standards of primary conduct and
a uniform regime of ultimate remedial or-

6.

Before October 2012, forty additional funds
were included in this tier, for a total of 118.

9.

7.

Great-West Life & Annuity Ins. Co. v. Knudson, 534 U.S. 204, 209, 122 S.Ct. 708, 151
L.Ed.2d 635 (2002).

8.

Santomenno ex rel. John Hancock Tr. v. John
Hancock Life Ins. Co., 768 F.3d 284, 291 (3d
Cir. 2014) (quoting Mertens v. Hewitt Assocs.,
508 U.S. 248, 251, 113 S.Ct. 2063, 124
L.Ed.2d 161 (1993)); accord Renfro v. Unisys
Corp., 671 F.3d 314, 321 (3d Cir. 2011).

Renfro, 671 F.3d at 321 (3d Cir. 2011)
(quoting Mertens, 508 U.S. at 262, 113 S.Ct.
2063).

10. Conkright v. Frommert, 559 U.S. 506, 517,
130 S.Ct. 1640, 176 L.Ed.2d 469 (2010) (quoting Varity Corp. v. Howe, 516 U.S. 489, 497,
116 S.Ct. 1065, 134 L.Ed.2d 130 (1996)); see
also Fifth Third Bancorp. v. Dudenhoeffer, 573
U.S. 409, 134 S.Ct. 2459, 2470, 189 L.Ed.2d
457 (2014) (‘‘Congress sought to encourage
the creation of [employee stock ownership
plans].’’).

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

ders and awards when a violation has occurred.’’11
Plaintiffs’ counsel, ‘‘one of the few firms
handling ERISA class actions such as
this,’’12 have brought numerous ERISA
suits across the country. While these cases
were at first limited to corporate retirement plans,13 they have expanded to include several suits against university retirement plans.14 These cases typically are
not litigated to conclusion, either terminating through settlement or a judicial finding
against the plaintiffs.
Given that these cases are brought as
putative class actions, counsel is able to
petition the court for fees after a successful settlement. In cases of successful settlements, counsel, upon petition, are often
awarded one third of the settlement
amount, plus expenses, from the settlement fund.15 While benefits to the plan
may result from the settlement, they are
11. Id. (quoting Rush Prudential HMO, Inc. v.
Moran, 536 U.S. 355, 379, 122 S.Ct. 2151,
153 L.Ed.2d 375 (2002)).
12. Beesley v. Int’l Paper Co., No. 06-CV-703,
2014 WL 375432, at *3 (Jan. 31, 2014).
13. E.g., Renfro, 671 F.3d at 314; accord Tibble
v. Edison Int’l, 831 F.3d 1262 (9th Cir. 2016);
Tussey v. ABB, Inc., 746 F.3d 327 (8th Cir.
2014); Hecker v. Deere & Co., 556 F.3d 575
(7th Cir. 2009).
14. E.g., Cunningham v. Cornell Univ., No. 16CV-6525, 2019 WL 275827 (Jan. 22, 2019)
(considering class certification motion); Divane v. Nw. Univ., No. 16-CV-8157, 2018 WL
1942649 (Apr. 25, 2018) (considering defendants’ motion to strike jury demand), appeal
filed (July 18, 2018); Clark v. Duke Univ., No.
16-CV-1044, 2018 WL 1801946 (Apr. 13,
2018) (considering class certification motion);
Tracey v. Mass. Inst. of Tech., No. 16-11620,
2017 WL 4478239 (Oct. 4, 2017) (considering
motion to dismiss); Cates v. Trs. Of Columbia
Univ., No. 16-CV-6524, 2017 WL 3724296
(Aug. 28, 2017) (considering motion to dismiss); Sacerdote v. N.Y. Univ., No. 16-cv-6284,
2017 WL 3701482 (Aug. 25, 2017) (considering motion to dismiss).

343

substantially diluted by the fees’ calculation, even before considering the litigation
costs that the universities shoulder
through the motion to dismiss stage. Indeed, while there is no comprehensive listing of ‘‘jumbo plans’’ maintained in this
country, this pattern of bringing class actions against large funds seems to have
sustained itself and could continue as long
as more plans can be identified.
Such a result would be the opposite of
‘‘assuring a predictable set of liabilities,
under uniform standards of primary conduct.’’16 Indeed, it would not only discourage the offering of these plans, but it
would also discourage ‘‘individuals from
serving as fiduciaries.’’17 Therefore, in enforcing the pleading standards under
Twombly and Iqbal, courts must take
great care to allow only plausible, rather
than possible, claims to withstand a motion
to dismiss.18 While the majority takes
15. See, e.g., Krueger v. Ameriprise Fin., No. 11CV-2781, 2015 WL 4246879, at *4 (July 13,
2015) (approving 33 1/3% fees and additional
costs totaling 36% of the common fund);
Nolte v. Cigna Corp., No. 07-CV-2046, 2013
WL 12242015, at *4 (Oct. 15, 2013) (approving 33 1/3% fees and additional costs totaling
36% of the common fund); George v. Kraft
Foods Global, Inc., No. 08-CV-3799, 2012 WL
13089487, at *4 (June 26, 2012) (approving
33 1/3% fees and additional costs totaling
49% of the common fund);
16.

Conkright, 559 U.S. at 517, 130 S.Ct. 1640.

17.

Id.

18. To the extent that amici, including the
American Council on Education, address this
point, I find it persuasive. More importantly, I
also believe that this consideration is consistent with the holding in Renfro. The majority’s
primary response to this argument of amici is
that defendants’ alternative would foreclose
ERISA liability for any plan with a mix and
range of options. I will address this below.
See infra Part IV.

344

923 FEDERAL REPORTER, 3d SERIES

great care to lay out the pleading standards that govern this dispute, for the
reasons stated below, I disagree that those
standards have been met.
The majority cites Fifth Third Bancorp
v. Dudenhoeffer 19 to support discarding
any concern of encouraging attorney-driven litigation, despite its ‘‘appreciation of
Penn and amici’s fear of frivolous litigation.’’20 But Fifth Third concerned an employee stock ownership plan, under which
employees invested primarily in the stock
of their employer, a plan that the majority
points out is subject to distinct duties under 29 U.S.C. § 1104(a).21 The defendants
in that case were arguing for a special
presumption that investments in the employer’s stock would be prudent unless the
employer was in dire financial straits.22 No
such presumption is necessary here to determine under Renfro that plaintiffs’
claims were properly dismissed.
For the above reasons, I conclude that
the District Court’s analysis of this case,
following Renfro, was the correct one.
III
Turning then to a more pragmatic concern with the pleading here, ERISA states
that a civil action may be brought ‘‘by the
Secretary, or by a participant, beneficiary
19. 573 U.S. 409, 134 S.Ct. 2459, 189 L.Ed.2d
457 (2014).
20.

Maj. Op. at 334.

21.

Fifth Third, 134 S.Ct. at 2463, 2467.

22.

Id. at 2466.

23.

29 U.S.C. § 1132(a)(2).

24. Perelman v. Perelman, 793 F.3d 368, 373–
74 (3d Cir. 2015). As the majority points out,
Perelman is a defined-benefit case brought
under 29 U.S.C. § 1132(a)(3), and a footnote
in Perelman does approve of representative
suits by plan participants or beneficiaries un-

or fiduciary.’’23 This statutory edict, however, does not override the constitutional
requirements for standing.24 In order for a
plaintiff to carry her burden of establishing constitutional standing,25 three elements must be met: (1) an injury in fact
‘‘that is concrete and particularized and
actual or imminent, as opposed to conjectural or hypothetical’’, (2) a causal connection between that injury and the conduct
so that the injury is fairly traceable to the
defendant’s action, and (3) ‘‘it must be
likely, as opposed to merely speculative,
that the injury will be redressed by a
favorable decision.’’26 We have held that
‘‘an ERISA beneficiary suffers an injuryin-fact TTT when a defendant allegedly
breaches its fiduciary duty, profits from
the breach, and the beneficiary, as opposed
to the plan, has an individual right to the
profit.’’27
Plaintiffs allege that the Plan’s use of
the 58 retail-class funds that had cheaper
institutional-class analogues caused an injury in fact sufficient to confer standing
for Count V. They do not, however, automatically have an individual right to the
alleged lost profits simply because they
are participants in the Plan broadly. At
argument, plaintiffs specifically conceded
that Tier 1 did not include any of the 58
funds challenged in Count V; plaintiffs limder § 1132(a)(2). The issue in the instant case,
however, is that we do not have sufficient
information about the putative representatives
to determine whether the harms they are
claiming, which do not implicate every Plan
participant, have affected them specifically.
25. ‘‘The burden of establishing standing lies
with the plaintiff.’’ Id. at 373 (citing Berg v.
Obama, 586 F.3d 234, 238 (3d Cir. 2009)).
26. Edmonson v. Lincoln Nat’l Life Ins. Co.,
725 F.3d 406, 415 (3d Cir. 2013) (quoting
Lujan v. Defenders of Wildlife, 504 U.S. 555,
560, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992)).
27.

Id. at 418 (emphasis added).

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

ited their focus in Count V to Tiers 3 and
4. Therefore, in order for plaintiffs to carry the burden of proof that they were
injured by the selection of the 58 retailclass funds, they must plead that they
were participants in Tier 3 or Tier 4. They
have not done so here.
The amended complaint does not contain
facts that link any of the named plaintiffs
to any tier at any point during the class
period. While a paragraph in the complaint
is devoted to each of the six plaintiffs, each
of those paragraphs consists of three sentences. The first lists the plaintiff’s name
and residence, the second states the plaintiff’s job title, and the third sentence is as
follows, with changes only for gender: ‘‘She
is a participant in the Plan under 29 U.S.C.
§ 1002(7) because she and her beneficiaries are or may become eligible to receive
benefits under the Plan.’’28 This averment
indicates merely that plaintiffs are participants under the definition of § 1132(a)(2).
It provides no information as to which tier,
or tiers, any individual plaintiff chose for
investment. Indeed, the entire record contains no direct information on this point.
Plaintiffs conceded this at oral argument.
The ‘‘standing’’ portion of the amended
complaint does imply that plaintiffs invested in ways consistent with being in a more
active investment tier, but it does so by
alleging generally that ‘‘the named Plaintiffs and all participants in the Plan suf28.

App. 39–40.

29. App. 36 ¶ 8(a); see, e.g., Emergency Physicians of St. Clare’s v. United Health Care, No.
14-CV-404, 2014 WL 7404563, at *4 (D.N.J.
Dec. 29, 2014) (dismissing plaintiff’s ERISA
suit due to lack of standing under 29 U.S.C.
§ 1132(a)(2) as the complaint would have required the district court to read additional
implied details into a complaint).
30. As the majority opinion states, an investor
is not confined to a single tier. This does not
change the fact that no information is provid-

345

fered financial harm’’ as a result of defendants conduct alleged in Count V. 29 This
cannot be sufficient.30
This language in the amended complaint
appears to mirror its citation to LaRue v.
DeWolff, Boberg & Assocs. to support
standing here.31 However, LaRue does not
save plaintiffs. The two situations in LaRue that the Supreme Court held to constitute
cognizable
claims
under
§ 1132(a)(2) were instances when ‘‘a fiduciary breach diminishes plan assets payable to all participants and beneficiaries,
or TTT to persons tied to particular individual accounts.’’32 The latter justification is
identical to our test above, and as counsel
conceded at argument, the plan’s system of
tiers included at least one tier, Tier 1, that
was not alleged to have been affected by
retail-class investments, rendering the former justification inapplicable. As a result, I
would affirm the District Court’s dismissal
of Count V.33
If this were the only deficiency in plaintiffs’ amended complaint, the appropriate
remedy would be to dismiss Count V without prejudice to allow plaintiffs an opportunity to allege sufficient facts regarding
the tiers they invested in. However, for the
reasons below, I believe that dismissing
Count V without prejudice would be futile
because plaintiffs have otherwise failed to
ed in the complaint that allows us to identify
whether any of the appellees invested in either a relevant fund or a relevant tier.
31. 552 U.S. 248, 128 S.Ct. 1020, 169 L.Ed.2d
847 (2008).
32. Id. at 256, 128 S.Ct. 1020 (emphasis added).
33. Count III’s allegation of excessive overall
recordkeeping fees implicates all participants
and thus survives this analysis, but it still fails
for the reasons stated in Part V below.

346

923 FEDERAL REPORTER, 3d SERIES

plead a claim upon which relief can be
granted.34
IV

The Seventh Circuit reasoned that it was
implausible that this structure did not
grant beneficiaries sufficient investment
choices, as the fees on each of these options ranged from 0.07% to 1% across all
funds.38

In Renfro v. Unisys Corp., we evaluated
a similar complaint at the same stage in
litigation, and determined that the mix and
range of investment options in the retirement plan provided by Unisys was sufficient to demonstrate that the defendants’
fiduciary duty had been met.35 Despite a
greater mix and range of options in the
instant case, the majority believes that the
standards that foreclosed the plaintiffs’ arguments in Renfro do not do so here.
However, a close look at the facts indicates
that plaintiffs’ arguments under both
Counts III and V are the same as, if not in
fact weaker than, in Renfro.

In Renfro, the Unisys plan included 73
distinct investment options,39 71 of which
were specifically named in the operative
complaint as having excessive fees. Fees
among the investment options in the Unisys plan ranged from 0.1% to 1.21%. We
held that since the allegations solely contested the fees charged in the Unisys plan,
we could not ‘‘infer from what is alleged
that the process was flawed,’’40 and we
affirmed the dismissal of the excessive investment fees claim.41

I will turn to Count V first. Three fact
patterns were presented in Renfro: the
facts surrounding the Unisys plan as well
as facts from two cases we considered
from other circuits with opposite outcomes.
In Braden v. Wal-Mart Stores, Inc., the
Eighth Circuit reversed the district court’s
grant of a motion to dismiss, as the plan at
issue contained only thirteen investment
options and was alleged to be part of a
kickback scheme.36 In contrast, in Hecker
v. Deere & Co., the Seventh Circuit affirmed the dismissal of a complaint against
a plan with twenty-three mutual fund options and a third-party service that provided beneficiaries access to hundreds more.37

In the instant case, the Plan has had a
minimum of 78 investment options during
the class period, 58 of which are specifically contested in the amended complaint.
Fees among these options in the Plan
range from 0.04% to 0.87%. Despite plaintiffs’ claims that these fees are excessive,
their attempts to distinguish Renfro boil
down to the level of detail in the complaint
rather than, for example, any change in
market circumstances that might render
this 0.04% to 0.87% range excessively high
today. While the question of fiduciary
breach does not boil down to a numerical
calculation, plaintiffs do not contest that
the Plan has a greater number of invest-

34. ‘‘Leave to amend is properly denied if
amendment would be futile, i.e., if the proposed complaint could not ‘withstand a renewed motion to dismiss.’ ’’ City of Cambridge
Retirement Sys. v. Altisource Asset Mgmt.
Corp., 908 F.3d 872, 878 (3d Cir. 2018) (quoting Jablonski v. Pan Am. World Airways, Inc.,
863 F.2d 289, 292 (3d Cir. 1988)).

37. 556 F.3d 575, 578–79, 586 (7th Cir. 2009);
see also Renfro, 671 F.3d at 326–27.

35.

671 F.3d 314, 325–28 (3d Cir. 2011).

36. 588 F.3d 585, 589–90, 596 (8th Cir. 2009);
see also Renfro, 671 F.3d at 327.

38.

Hecker, 556 F.3d at 586.

39.

671 F.3d at 327.

40. Renfro, 671 F.3d at 327 (quoting Braden,
588 F.3d at 596).
41.

Id. at 328.

SWEDA v. UNIVERSITY OF PENNSYLVANIA
Cite as 923 F.3d 320 (3rd Cir. 2019)

ment options than the Unisys plan and
that the highest and lowest fees charged
by Plan funds are both lower than in Renfro. It is therefore difficult to see, in the
absence of additional allegations regarding
market circumstances or fiduciary misconduct, how this claim could be plausible if
the claims in Renfro were not.
The majority believes that endorsing
this reasoning would allow a fiduciary to
‘‘avoid liability by stocking a plan with
hundreds of options, even if the majority
were overpriced or underperforming.’’42
This oversimplifies the analysis in Renfro,
which afforded substantial weight in its
discussion of Braden to allegations of a
kickback scheme.43 If coupled with other
allegations of mismanagement, a plan
flooded with hundreds of options might
itself be evidence of an imprudently clumsy attempt at fiduciary compliance or a
distraction from bad-faith dealings.
In the instant case, plaintiffs do not
allege any such schemes. Even their prohibited transaction claims, which the majority properly dismissed, derive from an
‘‘extremely broad’’ reading of 29 U.S.C.
§ 1106 rather than any self-interest on the
part of the fiduciaries. Without more, the
Count V challenge to the Plan is neatly
circumscribed by Renfro, regardless of the
level of specificity devoted to the pleadings.44
Moreover, plaintiffs’ admission that the
challenged funds are primarily offered to
Tiers 3 and 4 compels this outcome. If the
challenged funds were being provided in
Tier 1—that is, to investors who wished to
have their investments managed for
42.

Maj. Op. at 329.

43. See Renfro, 671 F.3d at 327 (‘‘Unlike the
pleadings in Braden, plaintiffs have not contended there was any sort of concealed kickback scheme TTTT’’).
44. The majority’s reliance on Tibble v. Edison
International, 843 F.3d 1187 (9th Cir. 2016)

347

them—the selection of more expensive
share classes in a large portion of the
fund would be concerning. However, since
Tiers 3 and 4 attract investors who have a
more sophisticated understanding of investment options and, inversely, are unlikely to attract investors who might be
easily confused by the available investments, the overall mix and range of options is not disturbed by the fact that only
the retail-class option was available for a
proportion of the funds in these tiers. The
majority stresses the importance of
‘‘Penn’s ‘conduct in arriving at an investment decision’ ’’45 but fails to mention that
twenty funds were switched from retailclass shares to institutional-class shares
between 2011 and 2016, a shift that demonstrates that defendants, in choosing investment options, were not deliberately ignoring the benefits of institutional-class
shares.
The majority alternatively suggests that
this analysis is too singularly focused on
numerical performance or on allegations of
misconduct. But both cannot be true simultaneously. A plausible allegation of either
kind at the pleading stage would be sufficient to defeat a motion to dismiss, but
plaintiffs here have not plausibly alleged
either. I would therefore affirm the District Court’s dismissal of Count V.
V
The plain text of Renfro also mandates
that plaintiffs’ Count III claim regarding
the method of calculating fees must fail. In
rejecting a similar, albeit less thoroughly
pled, excessive fees claim, we stated that
the Renfro plaintiffs’ ‘‘allegations concern(‘‘Tibble IV ’’), is misplaced. To the extent that
Tibble IV, a Ninth Circuit case, contradicts an
opinion of the Third Circuit in Renfro, it cannot apply in this case.
45.

Maj. Op. at 332 n.7.

348

923 FEDERAL REPORTER, 3d SERIES

ing fees are directed exclusively to the fee
structure and are limited to contentions
that Unisys should have paid per-participant fees rather than fees based on a
percentage of assets in the plan.’’46 This is
an exact description of Count III, and the
parallel logic is apparent between the two
complaints, even if the amended complaint
here is supplemented with more concrete
numbers than the Renfro complaint. The
allegations that failed in Renfro must fail
here also.
The majority relies solely on Tussey v.
ABB, Inc.47 to demonstrate that claims
involving excessive recordkeeping fees can
survive a motion to dismiss. This reliance
is improper. The Eighth Circuit noted that
‘‘unlike’’ cases like Renfro, Tussey ‘‘involve[d] significant allegations of wrongdoing, including allegations that ABB used
revenue sharing to benefit ABB and Fidelity at the Plan’s expense.’’48 Plaintiffs had
proven, during a bench trial, that ABB had
been explicitly warned about the excessiveness of their revenue sharing agreement
and had failed to act in any way upon that
warning.49 No such facts are alleged here,
and as such, plaintiffs’ Count III claim
must fail.50

spectfully dissent from the majority’s decision to reverse the District Court’s dismissal of Counts III and V of the amended
complaint.

,
Thomas PORTER; Anthony Bernard
Juniper; Mark Lawlor, Plaintiffs Appellees,
and
Ricky Gray; Ivan Teleguz, Plaintiffs,
v.
Harold W. CLARKE; David Zook,
Defendants - Appellants.
American Civil Liberties Union of Virginia, Incorporated; The Rutherford Institute; Professors and Practitioners
of Psychiatry and Psychology, Amici
Supporting Appellee.
No. 18-6257
United States Court of Appeals,
Fourth Circuit.
Argued: December 13, 2018

VI

Decided: May 3, 2019

For these reasons, I would affirm the
District Court’s dismissal of all counts of
the amended complaint. I therefore re-

Background: State death-row inmates
filed § 1983 action seeking declaratory and

46.

671 F.3d at 327.

47.

746 F.3d 327 (8th Cir. 2014).

48.

Tussey, 746 F.3d at 336.

49. Id. (‘‘The district court found, as a matter
of fact, that the ABB fiduciaries [failed to take
curative steps] even after ABB’s own outside
consultant notified ABB the Plan was overpaying for recordkeeping and might be subsidizing ABB’s other corporate services.’’).
50. To the extent the majority attempts to rely
on DOL Advisory Opinion 2013-03A to support its position that revenue sharing reim-

Amended: May 6, 2019

bursements might be necessary to satisfy the
prudent man standard, this reliance is also
misplaced. The quoted language in the advisory opinion merely opines on what a fiduciary
must do during revenue sharing negotiations
in order to satisfy the prudent man standard.
DOL Advisory Opinion 2013-03A, 2013 WL
3546834, at *4 (‘‘Prudence requires that a
plan fiduciary, prior to entering into such an
arrangement, will understand the formula,
methodology and assumptions used by Principal TTT following disclosure by Principal of all
relevant information pertaining to the proposed arrangement.’’).

